No.

IN THE SUPREME COURT OF THE UNITED
STATES

JOHN R. MUENSTER,
Petitioner,
v.
WASHINGTON STATE BAR ASSOCIATION,
Respondent.

On Petition for a Writ of Certiorari to the Supreme
Court of the State of Washington

WORD COUNT CERTIFICATE

JOHN R. MUENSTER
Petitioner pro se
P.O. Box 30108
Seattle, WA 98113
Telephone: (206)501-9565
Email: jmkkl613@aol.com

i

11

WORD COUNT CERTIFICATE
My petition for a writ of certiorari complies with
the word count and page limitations of the Court’s rules.
The petition is 20 pages in length. The word count is
3,749. The word count was calculated by the Microsoft
Word program on my computer. I declare under penalty
of perjury that the above is true and correct.

DATED this the 21st day of August, 2020.
S/ John R. Muenster
John R. Muenster
Petitioner pro se

li

